                           OFFICE OF THE INSPECTOR GENERAL
                           CORPORATION FOR NATIONAL AND
                                 COMMUNITY SERVICE



                             PRE-AUDIT SURVEY OF THE
                        KANSAS COMMISSION ON NATIONAL AND
                                COMMUNITY SERVICE


                                 OIG Audit Report Number 00-33
                                       January 20,2000




                                            Prepared by:

                                          KPMG LLP
                                      2001 M Street, N.W.
                                     Washington, D.C. 20036

                              Under CNS OIG MOU # 98-046-5003
                                 With the Department of Labor
                                 DOL Contract # J-9-G-8-0022
                                      Task # B9G9V104




This report was issued to Corporation management on September 29, 2000. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions on the
report's findings and recommendations no later than March 28, 2001, and complete its corrective actions
by September 28, 2001. Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                                   Office of Inspector General                                 CORPORATION
                         Corporation for National and Community Service                        FOR NATIONAL

                                 Pre-Audit Survey of the
                    Kansas Commission on National and Community Service
                              OIG Audit Report Number 00-33

Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit entities,
tribes and territories to assist in the creation of full and part time national and community service programs.
Currently, in accordance with the requirements of the Act, the Corporation awards approximately two-thirds
of its AmeriCorps StateINational funds to state commissions. The state commissions in turn fund, and are
responsible for the oversight of, subgrantees who execute the programs. Through these subgrantees,
AmeriCorps Members perform service to meet educational, human, environmental, and public safety needs
throughout the nation.
Thus, state commissions play an important role in the oversight of AmeriCorps programs and expenditures.
The Corporation has indicated that it intends to give them greater responsibility. However, the Corporation
lacks a management information system that maintains comprehensive information on its grants including
those to state commissions and subgrantees. Moreover, although the Corporation began state commission
administrative reviews in 1999,the Corporation, historically, has not carried out a comprehensive, risk-based
program for grantee financial and programmatic oversight and monitoring. It is also unlikely that
AmeriCorps programs are subject to compliance testing as part of state-wide audits under the Single Audit
Act due to their size relative to other state programs.
Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information on the
state commissions' operations and funding. The surveys are designed to provide a preliminary assessment
of the commissions' pre-award and grant selection procedures, fiscal administration, monitoring of
subgrantees (including AmeriCorps Member activities and service hour reporting), and the use of training
and technical assistance funds. For each survey, we will issue a report to the state commission and to the
Corporation communicating the results and making recommendations for improvement, as appropriate.
We engaged KPMG LLP to perform the pre-audit survey of the Kansas Commission on National and
Community Service. Based on the survey procedures performed, KPMG 's concluded that the Commission
has adequate controls over subgrantee selection,Jiscal administration, monitoring, and the use of training
and technical assistance funds. However, their report includes recommendations for improvements in the
Commission's subgrantee selection and rnonitoringprocedures. KPMG also recommends that OIGperform
limited scope audit work at the Commission focused on subgrantee monitoring and AmeriCorps Member
service hour reporting.
CNS OIG has reviewed the report and work papers supporting its conclusions. We agree with the findings
and recommendations presented.
Responses to the report by the Corporation for National Service and the Kansas Commission are included
as appendices C and D, respectively. The Corporation's response indicates that the CNS plans to request
semi-annual reports from the Commission on its actions to correct the conditions reported and to follow-up
on the corrective actions when the Commission is reviewed during the Corporation's administrative review
process.    The Kansas Commission's response reports corrective actions related to KPMG's
recommendations.

                                                                                            Inspector General
                                                                                            1201 New York Avenue, NW
                                                                                            Washington, I)C 20525
                                     Pre-Audit Survey of the
                       Kansas Commission on National and Community Service
                                        Table of Contents



RESULTS IN BRIEF ......................................................................................................................
                                                                                                                                  1

BACKGROUND .............................................................................................................................
                                                                                                                              2

OVERVIEW OF THE KANSAS COMMISSION ..........................................................................3

OBJECTIVES. SCOPE. AND METHODOLOGY ........................................................................
                                                                                                       3

FINDINGS AND RECOMMENDATIONS ...................................................................................
                                                                                                          5

APPENDIX A. COMMISSION FUNDING: 1996-97 THROUGH 1998-99 .............................
                                                                                   A. 1

APPENDIX B. DETAILED ENGAGEMENT OBJECTIVES AND
   METHODOLOGY ........................................................................................................... B .1

APPENDIX C. CORPORATION RESPONSE ...........................................................................
                                                                                                         C.1

APPENDIX D. KANSAS COMMISSION ON NATIONAL AND COMMUNITY SERVICE
   RESPONSE ...........................................................................................................................
                                                                                                                                 D .1
             2001 M Street, N.W.
             Washington, DC 20036




January 20,2000


Inspector General
Corporation for National and Community Service:

At your request, KPMG performed a preaudit survey of the Kansas Commission on National
and Community Service (Commission). The primary purpose of this survey was to provide a
preliminary assessment of:

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Commission;
   the effectiveness of monitoring its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours; and
   the controls over the provision of technical assistance.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering its AmeriCorps
grants:

    The Commission has established an open, competitive process to select national service sub-
    grantees subject to the availability of new funds. However, we identified an area for
    improvement related to inconsistent use of conflict of interest statements for all program
    years.

    The Commission has established an adequate process for the administration of grant funds.

    The Commission has established adequate policies and procedures for evaluating and
    monitoring subgrantees. However, we identified areas for improvement related to
    documentation of sample items reviewed during on-site visits, and explanations of Member
    activities provided to the Commission by subgrantees in service hour time logs and
    responses to program surveys.




1111          KPMG LLP KPMG LLP a U S Ihm~teda b t y partnershp
              a member of KPMG Internatonal a S w s s associatan
                                                                   IS
   The Commission has adequate controls in place to provide reasonable assurance that training
   and technical assistance is made available and provided to subgrantees.

The section below entitled Findings and Recommendations describes the weaknesses noted
above in further detail and addresses additional issues noted during the survey.

Based on our preliminary assessments, we recommend the performance of limited audit
procedures, with a focus on subgrantee monitoring and AmeriCorps Member service hour
reporting at the Commission for program years 1995-96 through 1998-99, to address the issues
identified herein.

We also recommend that the Corporation follow up with the Commission to determine that
appropriate corrective actions are put into place to address the conditions reported herein, and
that the Corporation consider these conditions in its oversight and monitoring of the Kansas
Commission on National and Community Service.


Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and provide effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.

Overview of the Kansas Commission

The Kansas Commission on National and Community Service, located in Topeka, Kansas has
received AmeriCorps grant funds fiom the Corporation for National and Community Service
since before program year 1994-95. It currently operates as part of the Kansas State Department
of Education. The Commission currently has four full-time and one part-time staff consisting of
an Executive Director, a Learn and Serve America Program Specialist, an AmeriCorps Program
Specialist and Fiscal Officer, an Executive Secretary and a Temporary Secretary.

As part of an agency of the State of Kansas, the Commission is annually subject to an Office of
Management and Budget (OMB) Circular A-133 audit. However, the Commission's
AmeriCorps grant has never been tested as a major program under OMB Circular A- 133. A
review of the 1998 statewide single audit report (the most recent available) did not indicate any
findings or internal control problems that would have a direct effect on the AmeriCorps grant.

The Commission provided us with the following information for the last three program years:

                                                                        Number of Sub-
                                                                       grantees Subject to
                              Total Corporation       Number of           A-133 Audit
        Promam Year               Funding             Submantees         Requirements*




    Determination is based solely on dollar value of federal awards passed through the
    Commission for the program year. Remaining subgrantees could be subject to an OMB
    Circular A-1 33 audit if they received additional federal grant funds from other sources.

Appendix A contains more detailed information on funding received from the Corporation
during program years 1996-97 through 1998-99.

Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and
Community Service, to provide an assessment of the systems and procedures in place at the
Commission for administering its AmeriCorps grants and for monitoring the fiscal activity of
subgrantees. The primary purpose of this pre-audit survey was to provide a preliminary
assessment of:

    the adequacy of the pre-award selection process;
    the fiscal procedures at the Commission;
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours; and
   the controls over the provision of technical assistance.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Our survey included the following procedures:

   reviewing applicable laws, regulations, grant provisions, the Corporation's State
   Commission Reference Manual, and other information to gain an understanding of legal,
   statutory and programmatic requirements;

    reviewing OMB Circular A-133 reports and current program year grant agreements for the
    Commission;

    obtaining information from Commission management to complete flowcharts documenting
    the hierarchy of AmeriCorps grant funding for program years 1996-97, 1997-98 and 1998-
    99: and

    performing the procedures detailed in Appendix B over the Commission's internal controls,
    selection of subgrantees, administration of grant funds, evaluation and monitoring of grants,
    and the technical assistance process.

As part of the procedures performed, we documented and tested internal controls in place at the
Commission using inquiries, observations, and examination of a limited sample of source
documents. Finally, we summarized the results of our work to develop the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on January 21,2000. Subsequent to that date, we
communicated with the Commission to clarify and resolve certain matters related to our
preliminary findings and to obtain additional information to finalize our report.

Our procedures were performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. We were not engaged to, and did not, perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on the controls at the Commission, or on its compliance with applicable laws,
regulations, contracts and grants. Accordingly, we do not express an opinion on any such
financial statements, or on the Commission's controls or compliance. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported to you.

We provided a draft of this report to the Commission and the Corporation. The Corporation's
and the Commission's responses to our findings and recommendations are included as Appendix
C and Appendix D, respectively.
Findings and Recommendations

Selecting Subgrantees

According to A Reference Manual for Commission Executive Directors and Members, section
3.2, "Commissions are expected to develop a fair and impartial process for reviewing and
selecting applicants for potential funding."

The Commission has developed procedures to administer an open, competitive process to select
national service subgrantees. However, these procedures are not consistently applied to all
program years. It is the Commission's practice to advertise the availability of funding only when
new funds are granted to the Commission. This practice ensures that existing programs in good
standing are not eliminated or penalized for lack of new or additional funds. It also allows for
existing programs to gain recognition in the community and to continually improve relations
with the Commission. The Commission has reported a decline in awards levels over the last few
years. Additionally, a representative of the Corporation in a letter dated January 13,2000
confirmed to the Commission that they were not required to compete the selection process for
the 1998-1999 program year due to funding limitations.

Despite the lack of annual advertising practices, the Commission continues to utilize a formal
and standard evaluation process in awarding available funds to existing subgrantees. This
process includes review of the application, quarterly progress reports, compliance with OMB
Circular A-133 requirements, overall control environment of the entity and goals and objectives
established by the applicant.


        Lack of Formal Conflict of Interest Statements

 According to A Reference Manual for Commission Executive Directors and Members, section
 3.6, "State Commissions should strive to achieve the greatest objectivity and impartiality
possible in the review and selection of grantees in the state.. .Any time a voting Commission
 member is not, or does not appear to be, for any reason, impartial to a program that is applying to
 the Commission for funding, the member has a conflict of interest." One way to help ensure this
 objectivity is to require selection officials (i.e., Commission members, peer reviewers and
.members of management) to annually certify in writing that they have no conflicts of interest.

The Commission obtains conflict of interest statements from selection officials only when new
applicants are being evaluated. Additionally, the Commission does not have a formal policy or
procedure that requires these officials to annually sign conflict of interest statements certifying
that they continue to have no conflicts. If selection officials have conflicts of interest but do not
report them, the fairness of the selection process may be impaired.


        Recommendations

We recommend the Commission develop and implement procedures that require selection
officials to sign conflict of interest statements annually after discussion of related issues with
Commission staff and review of written guidance.
Administering Grant Funds

The Commission has adequate controls in place to provide reasonable assurance that grants are
properly administered. These controls include:

    An established, uniform reporting method for all subgrantees;
    Open communication channels with subgrantees to ensure they are aware of record retention
    and reporting requirements; and
    Review of FSRs and follow up with subgrantees to resolve any noted deficiencies.

In addition, the Commission's organizational structure appears adequate and personnel appear to
have adequate skills and experience to manage Corporation grant funds. We identified no
significant areas for improvement within this process.


Evaluating and Monitoring Subgrantees

The Commission is responsible for evaluating whether subgrantees comply with legal, reporting,
financial management and grant requirements and ensuring follow through on issues of
noncompliance. The Commission evaluates and monitors its subgrantees, and performs annual
site visits to each subgrantee to ensure program objectives and grant provisions are being carried
out in accordance with Corporation guidelines. These site visits are documented using a
standardized report and include reviews of programmatic and financial management practices.
The Commission issues a formal communication to the subgrantee identifying weaknesses and
required corrective action. They also perform follow up visits as necessary and provide technical
assistance to ensure all deficiencies are corrected. However, we identified the following area for
improvement related to the evaluation and monitoring of subgrantees.

        Documentation of Sample Items Reviewed During On-site Visits

The Commission does not document in the site visit report the actual sample items reviewed, or
the source or basis for selecting the sample items tested. Without a record of the sample items
examined, subsequent reviewers would be unable to examine the same documentation if a
question arose about the results of the test.

Additionally, review of summary time logs of member activities and completed program surveys
maintained in selected subgrantee files revealed the use of member activity captions and
extremely concise responses to survey questions which raised questions as to the appropriateness
of reported activities in compliance with ArneriCorps grant provisions. For example, captions
included were "bowling," "dinner," "fundraising," or were sometimes left blank. Although the
Commission provided explanations for captions and assurance that appropriate service had been
performed, the potential for misinterpretation of ongoing activities remains high for other reports
not selected for review.

        Recommendations

We recommend the Commission implement the following additional procedures to improve the
effectiveness of its evaluation and monitoring of subgrantees:
   Include documentation of actual member files, source documents or reports reviewed during
   the on-site visit, including the dates covered by the review and the names of the personnel
   responsible for providing the information; and

   Require subgrantees to provide clearer descriptions of member activities on time sheets and
   related summaries submitted to the Commission for use in compiling performance statistics.
   Likewise, clearer narratives on program surveys should be required. Commission
   management should carefully review explanations and obtain additional information as
   necessary to reduce the potential for misinterpretation by program reviewers who are not as
   familiar with program activities as Commission personnel.


Providing Technical Assistance

The Commission has adequate controls in place to provide reasonable assurance that training and
technical assistance is made available and provided to subgrantees. Procedures are in place at
the Commission to (1) identify training and technical assistance needs of subgrantees through
discussions with program directors during quarterly training sessions, site visits, quarterly
progress reports and a needs assessment survey; (2) notify subgrantees of training programs; and
(3) provide needed training to subgrantees. We identified no significant areas for improvement
within this process.




This report is intended solely for the information and use of the Office of the Inspector General,
the management of the Corporation for National and Community Service, the management of the
Kansas Commission on National and Community Service, and the United States Congress and is
not intended to be and should not be used by anyone other than these specified parties.
                                                                              Appendix A
                                 Commission Funding

The table below and the flowcharts on the following pages depict the Commission's funding
over the past three program years. Funding amounts were agreed to the Commission's FSRs for
the 1997-1998 and 1998-1999 program years based on current period information. However,
previous program years were agreed to the FSRs on a cumulative basis, rather than on a program
year basis.


         Fundiw Source and T w e

         CNS Formula Grant Funds

         CNS Competitive Grant Funds

         CNS Promise Fellows Funds

         CNS Learn and Serve America Funds

         CNS PDAT Funds

         CNS Administrative Funds

         CNS Other Funds (GRASP)

         State Matching Funds

           Total Funding
  Commission Funding                             Appendix A




          Corporation for National Service
                  Funding to the
Kansas Commission on National and Community Service
                    1996-1997




 Total Corporation Funds Available to the Commission
                     $1,984,593




               Funds Awarded to Subgrantees
                       $1,733,991



                              +           --




                         Competitive       Learn and Serve
     Subgrantees                             Subgrantees
                         Subgrantees
       $97 1,907                                 $286,8 18
   # of subgrantees

      # of sites
                       # of subgrantees
                                          # of   subgrantees
                                                    33
                                                 # of   sites
                                                                II
          Commission Funding                            Appendix A




                 Corporation for National Service
                         Funding to the
       Kansas Commission on National and Community Service
                           1997-1998
I
                                                                I
                                                            All Other
                                                             Funds
                                    Funds
      $805,486




         Total Corporation Funds Available to the Commission
                             $1,591,039




                       Funds Awarded to Subgrantees
                               $1,272,755

            I                        I                      I
        Formula                 Competitive           Learn and Serve
      Subgrantees               Subgrantees             Subgrantees
       $805,486                  $182,833                 $284,436
    # of subgrantees          # of subgrantees        # of subgrantees
            6                         2                      31
        # of sites                # of sites              # of sites
                                      2
        Commission Funding                                     Appendix A




              Corporation for National Service
                      Funding to the
    Kansas Commission on National and Community Service
                        1998-1999
                       I                I              I             I




                                      Funds
    $749,003                                                      $2 18,974




       Total Corporation Funds Available to the Commission
                           $1,567,256

                                        I


                   Funds Awarded to Subgrantees
                           $1,253,282


                           1                                         1
    Formula          Competitive            Learn and Serve     Promise Fellows
  Subgrantees        Subgrantees              Subgrantees         Subgrantees
   $ 749,003           $70,700                  $368,579            $65,000
# of subgrantees   # of subgrantees         # of subgrantees    # of subgrantees
        6                  1                       29                   5
    # of sites         # of sites               # of sites          # of sites
                           1                                             5
                           Detailed Engagement Objectives
                                  and Methodology                                 Appendix B

Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program in relation to Subrecipient
monitoring, as follows: activities allowed or unallowed and allowable costs; cash management;
eligibility; matching; period of availability of Corporation funds; procurement, suspension and
debarment; and reporting by the Commission to the Corporation. We then interviewed key
Commission personnel to assess the Commission's controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms for each subgrantee applicant tested were signed by
selection officials annually and maintained by the Commission.

Administering the Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;

    make a preliminary assessment as to whether the Commission's organizational structure and
    staffing level and skill mix are conducive to effective grant administration and whether the
    Commission has a properly constituted membership;
                          Detailed Engagement Objectives
                                 and Methodology                                Appendix B


   make a preliminary assessment as to whether the Commission provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation,
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, enrollment forms and exit forms); and

   determine whether the Commission has procedures in place to verify the accuracy and
   timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Commission to the
Corporation, to preliminarily assess the accuracy of submitted Financial Status Reports. We also
determined whether the Commission had implemented the Web Based Reporting System
(WBRS).

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission, in conjunction with the Corporation, to implement a comprehensive, non-
    duplicative evaluation and monitoring process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    (including reported match));

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A- 133 audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals; and

    make a preliminary assessment of the adequacy of the procedures in place to evaluate
    whether subgrantees are achieving their intended purpose.
                          Detailed Engagement Objectives
                                 and Methodology                                  Appendix B


In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-133 audit
reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

   make a preliminary assessment of the adequacy of the systems and controls utilized by the
   Commission to provide technical assistance to subgrantees and other entities in planning
   programs, applying for funds, and implementing and operating programs;

    determine whether a process is in place to identify training and technical assistance needs;
    and

    determine whether training and technical assistance is provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year to
ensure they properly related to training activities that were made available to all subgrantees.
                                                                                            Appendix C
                                                    -   --     -



                                            CORPORATION

                                            FOR NATIONAL



     MEMORANDUM

     TO:              Luise S. Jordqn

     THRU:            Anthony-Fa+W

      FROM:           Deborah R. Jos
                      Bruce H. Cline

      DATE:           August 29,2000

      SUBJECT:        Response to the Draft Audit Report 00-33 Pre-Audit Survey of the
                      Kansas Commission on National and Community Service


      We have reviewed the draft report on your pre-audit survey of the Kansas Commission.
      We note that your preliminary assessment recommends a limited procedures audit at the
      Kansas Commission for program years 1995-96 through 1998-99. The draft audit report
      includes the following recommendation to the Corporation:
                                                                                                                   *


              "Additionally, we recommend that the Corporation follow up with the
              Commission to determine that appropriate corrective actions are put into place to
              address the conditions reported herein, and that the Corporation consider these
              conditions in its oversight and monitoring of the Kansas Community Service
              Commission."

       Some of the conditions cited in the "results in brief' section of the report include
       concerns related to inconsistent use of conflict of interest statements for all program
       years. It was also noted that documentation of sample items reviewed during on-site
       visits, and explanations of Member activities provided to the Commission by
       subgrantees in service hour time logs and responses to program surveys, are areas for
       improvement.

       Given our limited program administration resources, we developed a plan to assess State
       Commission administration functions. Over a three-year period, we will be reviewing
       each of the state commissions. As part of our follow-up with Kansas, we will determine
       whether the Commission has put appropriate corrective actions in place for conditions
       notedi* the pre-audit survey that your office has issued.

       In addition to this scheduled review, we will also request that the Kansas Commission
       provide semi-annual reports on their actions to correct conditions cited in the OIG pre-
       audit survey.                                                                                               -   1




                                                                                                                       I
                                                                                       :   SEP 132000

                                                                                  t               --.   _.   --.
NATIONAL SERVICE: GETTING THINGS DONE                        1201 New York Avenue, N.W. Washington, D.C. 20525
~m'corpr h d s e w ~ m & c u NatbndSeniw-   corpr            telephone: 202-665000     website: m . l w d o o & ~ c e . o ~
                                                                                         Appendix D

                                                                                        September 15, 2000



   Commission
    Members                m s e S. Jordan, Inspector General
Dr. William Wunder         Iffice of Inspector General
        Chair              Iorporation for Nat~onaland Commun~tyServ~ce
       Wichita             ,20 1 New York Avenue NW
    David Battey           Washington, DC 20525
 Shawnee Mission
 LoRenda Bradley           )ear Ms. Jordan:
       Topeka
   Irene Caudillo          ["nank you for the opportunity to comment on the Pre-Audit Survey of the Kansas
    Kansus City            Jommission on National and Community Service (KsCNCS) prepared by the
     Peg Dunlap            ?rm of KPMG LLP for your office. I would first like to indicate that we were
       Topeka              vrery impressed with the knowledge of the auditors from the Kansas City KPMG
    Jacque Feist           ~fficewho performed this survey. It was refreshing to talk with CPAs who are so
     Dodge City            familiar with the unique aspects of the statute and regulations that govern the
  Martha Gabehart          Vational Service programs that we administer.
       Topeka
  Richard Jackson          During our exit interview on January 21, 2000 with the on-site team, AnnL
       Ottawa              Soodwin, the lead auditor and KPMG Senior Manager, indicated that they would
    Jeff LaCroix           not recommend even a limited scope audit of the KsCNCS. The most recent draft
        Olathe             report recommends the performance of limited audit procedures that we believe
  Claudia Mendoza          are unnecessary considering the findings reflect only isolated instances within a
        Topeka             five year time kame and not pervasive patterns of noncompliance. Our quick
 Jolene Niemberger         response to modifying procedures to insure that we incorporate the
         Hays              recommendations of our audit team as well as our nine year history demonstrate
    Danielle Noe           that we share the same goal--for the KsCNCS to maintain full compliance with
        Topeka             the intent of the Act governing our programs. We have demonstrated that this
   Steven Pershall         will occur without the expense of another OIG audit.
      El Dorado
    Pat .Sweeney           The remainder of this letter will clarify our current procedures on which the OIG
       Abilene             Audit Report Number 00-33 dated January 12,2000 offers "Recommendations".
    Janet Waugh
     Kansas City           Lack of Conflict of Interest Statements

Ex Officio Members:        Since 1992, the KsCNCS procedures have always required both peer reviewers
 Jim Byrnes, Topeka        and Commissioners to sign conflict of interest statements. The minutes of the
Ken ent try, Lawfence      KsCNCS meetings over the last eight years reflect the names of Commissioners
 Pat Kells, Lawrence       who recused themselves from voting due to a possible perceived or actual
Kara Kuehnel, Wichita      conflict. During the pre-audit survey, we were unable to produce files containing
 Terry Perez-Garcia        all of the peer reviewer's individual signed conflict of interest statements for one
     Dodge City            of the approximately 25 peer grant reviews we have had over that time period.
                           These could have been lost during one of the four relocations of our office.
 120 SE 10th Avenue
Topeka, Kansas 666 12
   (785) 368-6207
 (785) 368-6284 fax
 pkells@ksbe.state.ks.us
                                                                                           Appendix D

The only subgroup of "selection officials" from whom we have not regularly secured written conflict of
interest forms has been our office staff. With no more that three staff persons at any given time having
input into the grant selection process, I failed to follow the formal procedure. Since January of this year,
we have had four external grant reviews. We have documented files that contain signed conflict of
interest forms from each of the subgroups of selection officials (including staff) for each of the four
processes. We also changed our review forms to include the conflict of interest statement and signature
within the reviewer packet rather thah as a separate piece of paper. This procedure is intended to prevent
loss of individual sheets that would document that we are striving to achieve the greatest objectivity and
impartiality possible in the review and selection of subgrantees.

Docwnentation of Sample Items Reviewed During On-site Visits

It is important to note that the issue related to time logs of member activities resulted from our sharing
with the auditors materials that we received from a subgrantee on December 17, 1999, approximately two
weeks prior to the KPMG pre-audit visit. Due to the thoroughness of our on-site monitoring procedures
performed on November 4, 1999, the subgrantee was required to submit evidence of how they maintained
overall logs of member activities. The subgrantee had just implemented a new system and we wanted to
be sure that it was adequate. The lack of clarity was indeed a factor of their new system which involved
college work-study students entering the data on Amencorps members hours in a system that was used
for their college volunteer program. An example of the lack of clarity in describing the activity in which
the corpsmember served is exemplified by "bowling". Bowling was used to describe the service of a
corpsmember who was a mentor for a Special Olympic athlete who was participating in a bowl in^
tournament. The subgrantee has made all essential changes in their system, including further instruction
of corpsmembers on thoroughness in describing their service activity. We worked with them to develop
clear descriptions on direct and indirect service. Our review of source documentation (interviews with
 site supervisors and corpsmembers) covering the term of the logs of member activities also confirms that
 the service performed met federal requirements related to allowable activities and percentage of
 directlindirect service. As is our practice, during our upcoming on-site monitoring visit (November 29,
 2000), their system will be reviewed again.

Another recommendation from KPMG related to our procedure of documenting which corpsmember files
are reviewed by use of the member's initials rather than their full name. Attached is a copy of one of the
revised forms from our on-site protocol that shows our new procedures. The full name of the source and
the dates covered by the review are now documented.

 In closing, once again, thank you for the opportunity to respond to the drafi report on our pre-audit
 survey. We look forward to hearing from you regarding our request to omit the recommendation for
 performance of limited audit procedures by the OIG.




Executive iDirecbr

 Attachment 1

 c: KsCNCS Membership
                                                                           Appendix D

    Name o f program:
    Dates covered by this teview:
    Data collected byldatt:


1                                                       Cormmember Names                     1


                                Documentation:




                            ,
    Legend:                                 Comments:
      'If Applicable
                                                                                        --
      pdh=Program Director's Handbook                                                   -
      X = yes
      n/a = Not Applicable
                                                                r
      0 =No                                                     r                        4




    Kansas Ofice for Co$m~initySewice
    ~ o n i t ' o r i Protocol
                      n~       2000-2001
